APPENDIX A

United States v. McCarter
United States Court of Appeals for the Fifth Circuit
May 19, 2020, Filed
No. 19-11011 Summary Calendar
Reporter
805 Fed. Appx. 327 *; 2020 U.S. App. LEXIS 16055 **; 2020 WL 2554243

PER CURIAM:*
UNITED STATES OF AMERICA, Plaintiff-Appellee v.
DESHAWN MCCARTER, Defendant-Appellant

Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.

Prior History: [**1] Appeal from the United States District
Court for the Northern District of Texas. USDC No. 3:17-CR285-1.

United States v. McCarter, 2017 U.S. Dist. LEXIS 191028
(N.D. Tex., Nov. 20, 2017)

Counsel: For UNITED STATES OF AMERICA, Plaintiff Appellee: Leigha Amy Simonton, Assistant U.S. Attorney,
U.S. Attorney's Office, Northern District of Texas, Dallas,
TX.
For DESHAWN MCCARTER, Defendant - Appellant:
Brandon Elliott Beck, Federal Public Defender's Office,
Northern District of Texas, Lubbock, TX.

Judges: Before CLEMENT, ELROD, and OLDHAM, Circuit
Judges.

[*328] Deshawn McCarter appeals his 37-month sentence
imposed following his guilty plea for being a felon in
possession of a firearm and ammunition, in violation of 18
U.S.C. §§ 922(g)(1) and 924(a)(2).
Raising one issue on appeal, McCarter argues that the district
court erred in finding that his prior California robbery
conviction is a "crime of violence" sufficient to qualify him
for a base offense level of 20 pursuant to U.S.S.G. §
2K2.1(a)(4)(A). According to McCarter, his California
robbery conviction does not qualify as a crime of violence
because it criminalizes a broader range of conduct than
generic robbery or generic extortion. McCarter acknowledges
that this argument is foreclosed by United States v. TellezMartinez¸ 517 F.3d 813 (5th Cir. 2008), but raises the issue to
preserve it for further review. The [**2] Government filed an
unopposed motion for summary affirmance agreeing that the
issue is foreclosed and, in the alternative, a motion for an
extension of time to file a brief.
As the Government argues, and McCarter concedes, the sole
issue raised on appeal is foreclosed by Tellez-Martinez, 517
F.3d at 814-15, wherein we held that the relevant statute,
California Penal Code § 211, fell within the "generic or
contemporary meaning of robbery as understood by this
court" and thus qualified as a crime of violence under the
former U.S.S.G. § 2L1.2(b)(1)(A)(ii). See United States v.
Montiel-Cortes, 849 F.3d 221, 226-27 nn.10-20 (5th Cir.
2017); see also United States v. Flores-Vasquez, 641 F.3d
667, 670 n.1 (5th Cir. 2011) (noting that a prior conviction
that qualifies as a "crime of violence" under the former §
2L1.2, also qualifies as a crime of violence under § 4B1.2).
Because the issue is foreclosed, summary affirmance is
appropriate. See Groendyke Transp., Inc. v. Davis, 406 F.2d
1158, 1162 (5th Cir. 1969).
Accordingly,

Opinion

* Pursuant

the

Government's

motion

for

summary

to 5TH CIR. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5TH CIR. R. 47.5.4.

Brandon Beck

Page 2 of 2
805 Fed. Appx. 327, *328; 2020 U.S. App. LEXIS 16055, **2
affirmance is GRANTED, and the judgment of the district
court is AFFIRMED. The Government's alternative motion
for an extension of time to file a brief is DENIED.

End of Document

Brandon Beck

APPENDIX B

Case 3:17-cr-00285-N Document 55 Filed 09/16/19

Page 1 of 7 PageID 339

UNITED STATES DISTRICT COURT

NORTHERN DISTRICT OF TEXAS DALLAS DIVISION

UNITED STATES OF AMERICA

§
§
§
§
§
§
§

v.
DESHAWN MCCARTER

JUDGMENT IN A CRIMINAL CASE

Case Number: 3:17-CR-00285-N(1)
USM Number: 55831-177
Douglas A Morris
Defendant’s Attorney

THE DEFENDANT:
‫ ܆‬pleaded guilty to count(s)
pleaded guilty to count(s) before a U.S.

‫ ܈‬Magistrate Judge, which was accepted by the
‫܆‬
‫܆‬

court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not
guilty

Count 1 of the Indictment filed May 23, 2017.

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense
18:922(G)(1) and 924(A)(2) Felon In Possession Of A Firearm and Ammunition

Offense Ended

Count

08/03/2016

1

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

‫ ܆‬The defendant has been found not guilty on count(s)
‫ ܆‬Count(s) ‫ ܆‬is ‫܆‬are dismissed on the motion of the United States
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

SEPTEMBER 9, 2019
Date of Imposition of Judgment

Signature of Judge

DAVID C. GODBEY, UNITED STATES DISTRICT JUDGE
Name and Title of Judge

SEPTEMBER 16, 2019
Date

19-11011.129

Case 3:17-cr-00285-N Document 55 Filed 09/16/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 2 of 7 PageID 340

Judgment -- Page 2 of 7

DESHAWN MCCARTER
3:17-CR-00285-N(1)

IMPRISONMENT
Pursuant to the Sentencing Reform Act of 1984, but taking the Guidelines as advisory pursuant to United States v. Booker,
and considering the factors set forth in 18 U.S.C. Section 3553(a), the defendant is hereby committed to the custody of the United
States Bureau of Prisons to be imprisoned for a total term of:
37 (Thirty-Seven) months as to count 1. This sentence shall run concurrently to any sentence imposed in Case No. F-1630879
in the 283rd Judicial District Court of Dallas County, Texas.

‫ ܆‬The court makes the following recommendations to the Bureau of Prisons:



‫ ܆‬The defendant is remanded to the custody of the United States Marshal.
‫ ܆‬The defendant shall surrender to the United States Marshal for this district:


‫ ܆‬at

‫܆‬

a.m.

‫܆‬

p.m.

on

‫ ܆‬as notified by the United States Marshal.
‫ ܈‬The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
‫ ܈‬before 11 a.m. on Monday, December 9, 2019.
‫ ܆‬as notified by the United States Marshal.
‫ ܆‬as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

_______________________________________
UNITED STATES MARSHAL

By
_______________________________________
DEPUTY UNITED STATES MARSHAL

19-11011.130

Case 3:17-cr-00285-N Document 55 Filed 09/16/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 3 of 7 PageID 341

Judgment -- Page 3 of 7

DESHAWN MCCARTER
3:17-CR-00285-N(1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: Two (2) years as to Count 1.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

‫ ܆‬The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future

4.
5.

‫܆‬

substance abuse. (check if applicable)
You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)
You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)

‫܈‬
6. ‫ ܆‬You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et

seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)

7.

‫ ܆‬You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

19-11011.131

Case 3:17-cr-00285-N Document 55 Filed 09/16/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 4 of 7 PageID 342

Judgment -- Page 4 of 7

DESHAWN MCCARTER
3:17-CR-00285-N(1)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at www.txnp.uscourts.gov.
Defendant’s Signature

Date

19-11011.132

Case 3:17-cr-00285-N Document 55 Filed 09/16/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 5 of 7 PageID 343

Judgment -- Page 5 of 7

DESHAWN MCCARTER
3:17-CR-00285-N(1)

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall participate in a program (inpatient and/or outpatient) approved by the U.S. Probation officer
for treatment of narcotic, drug, or alcohol dependency, which will include testing for the detection of substance
use or abuse. The defendant shall abstain from the use of alcohol and/or all other intoxicants during and after
completion of treatment. The defendant shall contribute to the costs of services rendered (copayment) at a rate
of at least $10 per month.
The defendant shall participate in a domestic violence treatment program (i.e. batterer's intervention program
and anger management program) as directed by the probation officer until successfully discharged. The
defendant shall contribute to the costs of services rendered (copayment) at a rate of at least $10 per month.

19-11011.133

Case 3:17-cr-00285-N Document 55 Filed 09/16/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 6 of 7 PageID 344

Judgment -- Page 6 of 7

DESHAWN MCCARTER
3:17-CR-00285-N(1)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the Schedule of Payments page.
TOTALS

Assessment
$100.00

JVTA Assessment*
$.00

Fine
$.00

Restitution
$.00

‫ ܆‬The determination of restitution is deferred until

An Amended Judgment in a Criminal Case (AO245C) will be entered
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

‫ ܆‬Restitution amount ordered pursuant to plea agreement $
‫ ܆‬The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
‫܆‬

the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on the Schedule
of Payments page may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
‫ ܆‬the interest requirement is waived for the
‫ ܆‬fine
‫ ܆‬restitution

‫ ܆‬the interest requirement for the

‫ ܆‬fine

‫ ܆‬restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

19-11011.134

Case 3:17-cr-00285-N Document 55 Filed 09/16/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 7 of 7 PageID 345

Judgment -- Page 7 of 7

DESHAWN MCCARTER
3:17-CR-00285-N(1)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

‫܆‬

Lump sum payments of $

due immediately, balance due

‫܆‬

not later than

, or

‫܆‬

in accordance

B

‫܆‬

Payment to begin immediately (may be combined with

C

‫܆‬

Payment in equal

D

‫܆‬

Payment in equal 20 (e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a term of
supervision; or

E

‫܆‬

Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

‫܈‬

Special instructions regarding the payment of criminal monetary penalties:
It is ordered that the Defendant shall pay to the United States a special assessment of $100.00 for Count 1, which shall be due
immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.

‫܆‬

C,

‫܆‬

D,

‫܆‬

E, or

‫܆‬

F below; or

‫܆‬

C,

‫܆‬

D, or

‫܆‬

F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

 Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several
Amount, and corresponding payee, if appropriate.

‫܆‬
‫܆‬
‫܈‬

‫ ܆‬Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same loss that gave
rise to defendant's restitution obligation.
The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest in the following property to the United States:

a Taurus, Model PT111 G2, 9-millimeter pistol, bearing Serial No. TIZ05948, and all ammunition,
magazines, and/or accessories recovered with the firearm.
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

19-11011.135

